HHS/OIG, Audit -"Oversight and Evaluation of the Fiscal Year 2003 Hospital Payment Monitoring Program,"(A-03-03-00015)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Oversight and Evaluation of the Fiscal Year 2003 Hospital Payment Monitoring Program," (A-03-03-00015)
November 10, 2003
Complete
Text of Report is available in PDF format (157 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Clinical Data Abstraction Centers (CDACs) followed established
Hospital Payment Monitoring Program (HPMP) error rate review policies and procedures, and the HPMP internal quality control
process ensured the reliability of the CDAC claims review process.  Our review of 90 inpatient acute care hospital
claims found that the CDACs generally followed established HPMP error rate review policies and procedures.  In addition,
our review of 45 claims subject to the HPMP internal quality control process showed that controls were generally operating
effectively.  However, we noted 2 procedural problems.  For 2 of the 90 sampled claims, one CDAC did not send
followup letters requesting medical records.  For 1 of the 45 claims subject to quality control reviews, a quality
control procedure was not followed.